CERTIFICATE OF COMPLIANCE
Case No. Torres v. Madrid
Caption: 12-292
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 6,211 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2, 2019.

i o Honeywell
d Press, Inc.

Sworn to before me on
October 2, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

